      Department of Homeland Security





            FEMA’s Progress in Implementing 

                 Employee Credentials 





OIG-12-89                                       June 2012

                               OFFICE OF INSPECTOR GENERAL
                                    Department of Homeland Security
                                    'I: ashington, OC _0528 //www.oig.dhs.gov
                                                              www.oig.dhs.gov




                                      JUN 1 5 2012
                                     JUN 1 5 2012

MEMORANDUMFOR:
MEMORANDUM FOR:                     Robert Fenton
                                    Robert Fenton
                                    Associate
                                    Associate Administrator
                                              Administrator
                                    Response and
                                    Response  and Recovery
                                                  Recovery
                                    Federal Emergency
                                    Federal Emergency Management
                                                       ManagementAgency
                                                                  Agency
                                                       /~      Jj) ' /! /
FROM:
FROM:                               Anne
                                    Anne L. L.   Richards
                                            Richards             ~~
                                                     tf.!4VJL,1o(alf;¡  ~J
                                    Assistant
                                    Assistant Inspector
                                               Inspector General
                                                         General for
                                                                 for Audits
                                                                     Audits

SUBJECT:
SUBJECT:                            FEMA's
                                    FEMA's Progress
                                           Progress in Implementing
                                                       ImplementingEmployee
                                                                    Employee Credentials
                                                                             Credentials

 Attachedfor
Attached        foryour
                      youraction
                              actionisisour  ourfinal
                                                  finalreport,
                                                        report,FEMA's
                                                                FEMA'sProgress
                                                                       ProgressininImplementing
                                                                                    ImplementingEmployee
                                                                                                  Employee
 Credentials.
Credentials.                 the formal comments the formal comments from
                      We incorporated
             We incorporated                                            fromFEMA's
                                                                             FEMA's Office
                                                                                      Office of
                                                                                             ofPolicy
                                                                                                Policy and
                                                                                                        and
Program
 Program Analysis
                Analysis in  in the final report.
                                                report.

The report
The  report contains
             contains three
                       three recommendations
                               recommendationsaimed   aimed at
                                                             atimproving
                                                                improvingFEMA's
                                                                            FEMA's credentialing
                                                                                   credentialing
program.
program. Your
            Your office
                  office concurred
                         concurred with
                                      with all
                                            all three
                                                 three recommendations.
                                                        recommendations. Based
                                                                             Based on information
                                                                                       information
provided in
provided   in your
              your response
                    response to the
                                  the draft
                                       draftreport,
                                             report,we  weconsider
                                                           consider the
                                                                     the recommendation(s)
                                                                          recommendation(s}
 resolved. Once
resolved.   Once your
                   your office
                         office has
                                has fully
                                    fully implemented
                                           implemented the therecommendations,
                                                                recommendations, please
                                                                                    please submit
                                                                                            submit
aa formal
   formal closeout
          closeout letter
                   letterto
                          to us
                              uswithin
                                within 30
                                       30 days
                                          days so that
                                                  that we
                                                       we may
                                                          may close the
                                                                    the recommendation(s).
                                                                        recommendation(s}.
The memorandum
The  memorandum should
                    should be
                           be accompanied
                               accompanied byby evidence of
                                                         of completion
                                                            completion of
                                                                       ofagreed-upon
                                                                          agreed-upon
corrective
corrective actions
           actions and
                   and the
                       the disposition
                           disposition of
                                       of any
                                          any monetary
                                              monetary amounts.
                                                        amounts.

Consistent with
Consistent  with our
                 our responsibility
                      responsibilityunder   theInspector
                                     underthe   InspectorGenerol
                                                         General Act, we are
                                                                 Act, we  are providing
                                                                              providing
copies
copies of
       of our report
              report to
                      to appropriate
                         appropriatecongressional
                                       congressional committees
                                                      committeeswith
                                                                 with oversight
                                                                       oversight and
                                                                                 and
appropriation
appropriation responsibility
               responsibility over
                              over the
                                    the Department
                                         Department ofofHomeland
                                                        Homeland Security.
                                                                  Security. We
                                                                             We will
                                                                                  will post
                                                                                       post
the report
the report on
           on our
               our website
                   websitefor
                            for public
                                public dissemination.
                                        dissemination.

Please call me with any
Please              any questions,  oryour
                        questions, or  yourstaff
                                            staffmay
                                                  maycontact
                                                        contactJohn
                                                                JohnE.E.McCoy
                                                                        McCoyII,
                                                                              II,
Deputy
Deputy Assistant
        Assistant Inspector
                  Inspector General
                            General for
                                     forAudits,
                                         Audits, at
                                                 at (202)
                                                     (202) 254-4100.
                                                           254-4100.

Attachment
Attachment
                                         OFFICE OF INSPECTOR GENERAL
                                              Department of Homeland Security


   Table of Contents
   Executive Summary............................................................................................................. 1

   Background ........................................................................................................................ 2

   Results of Review ................................................................................................................ 4

              Developing a Credentialing Program ...................................................................... 4
              Recommendations ................................................................................................. 9
              Management Comments and OIG Analysis ........................................................... 9

   Appendixes
    

              Appendix A:        Purpose, Scope, and Methodology ................................................. 11 

              Appendix B:        Management Comments to the Draft Report ................................. 12 

              Appendix C:        Major Contributors to This Report .................................................. 15 

              Appendix D:        Report Distribution .......................................................................... 16 


   Abbreviations
              ADD                        Automated Deployment Database
              CORE                       Cadre of On-Call Response/Recovery Employees
              DHS                        Department of Homeland Security
              DRWD                       Disaster Reserve Workforce Division
              FEMA                       Federal Emergency Management Agency
              FQS                        FEMA Qualification System
              FY                         fiscal year
              GAO                        Government Accountability Office
              IT                         information technology
              OIG                        Office of Inspector General
              PKEMRA                     Post-KatrinafEmergencyfManagementfReformfActfoff2006
              PFT                        Permanent Full-Time
              QRB                        Qualification Review Board




www.oig.dhs.gov                                                                                                                OIG-12-89
                            OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security


   Executive Summary
   The Federal Emergency Management Agency (FEMA) must have a trained, effective disaster
   workforce to carry out its mission. In 2006, Congress passed the Post-KatrinafEmergencyf
   ManagementfReformfActfoff2006, as amended, which created a basis for credentialing
   emergency response providers. FEMA defines credentialing as a system for qualification
   and certification of the agency workforce through experience, training, and demonstrated
   performance. We performed this review to determine the status of FEMA’s credentialing
   program implementation.

   In response to Post-KatrinafEmergencyfManagementfReformfAct off2006frequirements,
   FEMA’s Disaster Reserve Workforce Division launched an agency-wide credentialing effort
   in June 2008. That effort resulted in the creation of the agency’s credentialing program.
   Since then, the program has been transferred to a different office, and the scope of the
   credentialing program has increased significantly.

   FEMA has not completed implementation of the credentialing program. FEMA has not
   identified an information technology system to track the training, development, and
   deployment of disaster employees. It does not have a detailed information technology
   plan, documented costs, projected schedule, and capability and/or performance
   requirements to support the information technology implementation. Budget and staffing
   costs for system development have not been provided to us, and FEMA officials are still
   assessing training and curriculum needs. Once implemented, the credentialing program
   should strengthen FEMA’s ability to deliver high-quality and efficient services during
   disaster response.

   We made three recommendations that, when implemented, should assist FEMA in
   completing the credentialing process, as well as finalizing the information technology
   acquisition and training development necessary to track disaster employees. FEMA
   concurred with the recommendations.




www.oig.dhs.gov                                1                                       OIG-12-89
                                   OFFICE OF INSPECTOR GENERAL
                                       Department of Homeland Security


   Background
   Hurricane Katrina severely tested disaster management at the Federal, State, and local
   levels and revealed weaknesses in the basic elements of preparing for, responding to,
   and recovering from a catastrophic disaster.1 One weakness consistently mentioned
   was FEMA’s need for a trained, effective disaster workforce. FEMA’s disaster workforce
   consists mainly of Reservists, who are employed on an intermittent basis. FEMA
   struggled to provide enough staff in response to Hurricane Katrina and did not have an
   automated system to deploy more than 5,000 disaster personnel on short notice. New
   hires did not receive adequate training during FEMA’s accelerated orientation process
   after Hurricane Katrina, and FEMA did not have a central training records management
   system. The shortage of qualified staff for key positions negatively impacted FEMA’s
   response and recovery operation.2

   The Post-KatrinafEmergencyfManagementfReformfActfoff2006 (PKEMRA) was enacted to
   address the agency’s shortcomings. PKEMRA provides a guideline for rebuilding FEMA’s
   permanent and reserve workforces through tools such as a strategic human capital plan,
   structured career paths, and recruitment and retention bonuses.

   FEMA has a diverse workforce composed of permanent, temporary, and intermittent
   employee categories such as Permanent Full-Time (PFT),3 Cadre of On-Call
   Response/Recovery Employees (CORE),4 and Disaster Assistance Employees—also
   known as Reservists.5 Each category has different structures and includes occupational
   specialties. Currently, FEMA’s disaster workforce uses the cadre structure to identify
   employees who perform a specific operational program or function in support of
   agency-wide disaster operations.




   1
     GAO-09-59R,fActionsftofImplementfthefPost-KatrinafAct.
   2
     DHS-OIG-10-123, FEMA’sfPreparednessfforfthefNextfCatastrophicfDisaster—AnfUpdate.
   3
     PFT positions are full-time civil service jobs in the competitive service, filled according to a merit system
   where the best qualified candidates are chosen based on application and interview processes.
   4
     CORE employees are hired under the authority and provisions of the RobertfT.fStaffordfDisasterfRelieff
   andfEmergencyfAssistancefAct, as amended, which allows Federal agencies to appoint and fix the
   compensation of such personnel without regard to the competitive service provisions of title 5 of the
   Code of Federal Regulations. CORE positions are temporary, excepted service appointments with specific
   “not to exceed” dates.
   5
     Disaster Assistance Employees (Reservists) are Federal employees who work on an on-call, intermittent
   basis. Reservists form the major workforce for FEMA in times of emergency or disaster.


www.oig.dhs.gov                                           2                                                 OIG-12-89
                                  OFFICE OF INSPECTOR GENERAL
                                       Department of Homeland Security




                                          25 Functional Capabilities of FEMA’s Cadres
                           Administration                              Information Technology
                           Alternate Dispute Resolution                Logistics
                           Attorney                                    Long Term Community
                           Community Relations                         Recovery
                           Comptroller                                 Mitigation
                           Congressional                               Operation
                           Contracting/Acquisitions                    Planning
                           Environmental/Historic Preservation         Public Affairs
                           Equal Rights                                Public Assistance
                           Federal Coordinating Officer                Safety
                           Finance                                     Security
                           Human Capital                               Training
                           Individual Assistance                       Disaster Generalist

                  Source: FEMA Web site 11/15/2011.




www.oig.dhs.gov                                        3                                        OIG-12-89
                                   OFFICE OF INSPECTOR GENERAL
                                       Department of Homeland Security


   identified that FEMA’s workforce generally did not have sufficient experience and
   training to perform the responsibilities of FEMA’s Public Assistance program efficiently.
   Some employees did not receive formal training until after a disaster had occurred.
   FEMA officials anticipated that the credentialing implementation would help correct this
   problem.6


   Results of Review
              Developing a Credentialing Program

              FEMA began the first credentialing effort in 2008, and followed this program
              with the FEMA Qualification System (FQS) in 2010. The FQS program was
              designed to define standards of qualification and certification of the FEMA
              workforce through experience, training, and demonstrated performance.
              However, several program implementation dates have not been met, temporary
              information systems are not integrated, and a comprehensive information
              technology (IT) plan is needed.

              Project Planning

              In response to PKEMRA’s requirements, FEMA’s Disaster Reserve Workforce
              Division (DRWD) launched an agency-wide credentialing effort in June 2008,
              which resulted in the creation of FEMA’s credentialing program. The program
              was responsible for the design and implementation of a plan to standardize the
              recruiting, training, and credentialing of FEMA’s Disaster Reserve Workforce.
              This effort was modified in April 2009, as FEMA began implementing the Agency-
              Wide Disaster Workforce Credentialing Plan, which identified the processes that
              all cadres must implement in order to ensure that FEMA applies a consistent and
              fair process to credential each cadre member.

              FEMA initially estimated that half of the Disaster Reserve Workforce would be
              credentialed by the second quarter of fiscal year (FY) 2012, with the remainder
              being fully credentialed by FY 2013. Half of the full-time workforce would be
              credentialed by FY 2013 and the rest by FY 2014. However, the DRWD stopped
              work on the program in September 2010, and the implementation was
              transferred to the Response Directorate and renamed the FEMA Qualification
              System (see figure 1).


   6
       DHS-OIG-10-26, AssessmentfoffFEMA’sfPublicfAssistancefProgramfPoliciesfandfProcedures.


www.oig.dhs.gov                                        4                                        OIG-12-89
                                      OFFICE OF INSPECTOR GENERAL
                                           Department of Homeland Security




           Figure 1. 





                          •The Post-KatrinafEmergencyfManagementfReformfActfoff2006 (PKEMRA) was
                           enacted to address the agency’s shortcomings and provide a guideline for
             2006          rebuilding FEMA’s workforce.


                          •Disaster Reserve Workforce Division establishes Disaster Assistance Employee
                           credentialing effort and an Agency-wide credentialing effort.
             2008

                          •Implementation is transferred to the Response Directorate and named FEMA
                           Qualification System.
             2010

                          •Began migration of employees to FEMA Qualification System.
             2011

                          •FQS IT system. (Planned)
             2012         •Training course development and delivery. (Planned)



           Source: DHS-OIG, based on FEMA information.




           FEMA defines the FQS as a system for qualification and certification of the FEMA
           workforce. FEMA leadership intends for the FQS to build on earlier credentialing
           initiatives, as well as best practices from other credentialing systems. According
           to FEMA, the FQS was modeled on the National Wildfire Coordinating Group
           credentialing system. The FQS defines the standards of qualification and
           certification of the FEMA workforce through experience, training, and
           demonstrated performance. Although FEMA’s credentialing will not result in a
           certification, license, or badge, it is designed to evaluate task performance and
           use qualification progression flowcharts to demonstrate skill development. As
           employees are evaluated, based on experience and training, they will be
           identified as “Trainee” or “Qualified” with a specific job title. Figure 2 presents
           an overview of the FQS process.




www.oig.dhs.gov                                          5                                          OIG-12-89
                                        OFFICE OF INSPECTOR GENERAL
                                              Department of Homeland Security


                   Figure 2. 


                                                   FQS Process Overview





                  Source: FEMA Qualification System Guide for Incident Management and Incident Support Positions; March 2011.




           New PFT and CORE employees will attend the FEMA Employee Readiness
           Program, where they will be briefed on FQS and allowed to choose a cadre and a
           disaster title. All newly hired Disaster Assistance Employees will adhere to FQS
           requirements for training, experience, and demonstrated performance.

           FEMA Qualification Review Boards (QRBs) will be established in each Region.
           The FEMA Regional Administrator will select the QRB members. The QRBs will
           determine employees’ credentialing qualification status. As of the end of our
           fieldwork, no QRBs had been established.

           FEMA began the migration of employees to the FQS on June 19, 2011, with the
           transition scheduled to end on August 30, 2011. FEMA has separated all
           employees into two categories for the migration period: Incident Management
           and Incident Support. Approximately 9,000 employees are categorized as
           Incident Management; approximately 8,000 are categorized as Incident Support.

           Qualifications and evaluations were ongoing through June, July, and August
           2011. During the initial review, each employee was defined as “Qualified” or
           “Trainee.” FEMA describes trainees as personnel who have not completed the
           required training and experience for a job title. FEMA describes qualified
           personnel as those who have met the training and experience requirements.
           Once all qualifications and evaluations were completed, FEMA planned to send


www.oig.dhs.gov                                                      6                                                          OIG-12-89
                               OFFICE OF INSPECTOR GENERAL
                                   Department of Homeland Security


           out notification letters in August and September 2011. Full implementation of
           the program was scheduled for October 1, 2011.

           FEMA reported that 6,675 Incident Management employees had been identified
           as “Qualified” in their current position, and 2,620 had been identified as
           “Trainee.” However, at the end of fieldwork, no qualification notification letters
           had been distributed. Incident Support employees are to be identified as in the
           “Qualified” or “Trainee” categories by December 2012.

           Information Technology

           FEMA faces challenges in implementing the IT systems that will support the FQS’
           maintenance and tracking of the training, qualifications, and availability of
           Incident Management employees. FEMA staff said that the Automated
           Deployment Database (ADD), FEMA’s Employee Knowledge Center, and the
           Training Information Access System will serve as temporary solutions during the
           implementation of the FQS. The original DRWD credentialing implementation
           used the ADD and Web-ADD to identify and maintain a record of the personnel
           deployed during disasters. However, FEMA suspended the use of Web-ADD
           because it could not adequately monitor employee deployment readiness,
           length of deployment, or location data.7

           FEMA officials said that they are currently looking at all functional and program
           requirements to help refine the path forward. They confirmed that a system
           analysis is being conducted on options for an FQS credentialing/tracking system.
           FQS program officials acknowledge that there is a great deal of work still to be
           done to develop the FQS.

           FEMA has not updated its IT systems with employee job title or qualification
           information (identifying them as “Qualified” or “Trainee”). We identified similar
           challenges in a prior audit report. We concluded that the agency’s automated
           deployment system needed updates to allow managers to supervise Disaster
           Assistance Employees and monitor deployment readiness, length of deployment,
           and employee location.8




   7
    DHS-OIG-10-123, FEMA’sfPreparednessfforfthefNextfCatastrophicfDisaster—AnfUpdate.
   8
    DHS-OIG-10-115,fFEMA’sfManagementfoffDisasterfAssistancefEmployeefDeploymentfandfPayrollf
   Processes.


www.oig.dhs.gov                                    7                                            OIG-12-89
                        OFFICE OF INSPECTOR GENERAL
                         Department of Homeland Security




                                                           9

           developed,                mance




           Conclusion




   9




www.oig.dhs.gov                       8                        OIG-12-89
                              OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


           capability and/or performance requirements to support the FQS IT
           implementation.

           Prior reports have identified the need to expedite the implementation of the
           credentialing program. Until the program is completely implemented, FEMA will
           continue to be challenged to deliver services that are consistent in quality and
           efficiency during a disaster response.

           Recommendations
           We recommend that the Federal Emergency Management Agency’s Director,
           Incident Workforce Management Office:

           Recommendation #1:

           Establish and implement an approved FEMA Qualification System project plan,
           with defined metrics and timeframes that ensure adequate project planning and
           program transparency.

           Recommendation #2:

           Implement a comprehensive information technology system to track
           credentialing, training, and deployment information. In doing so, consider using
           commercial off-the-shelf systems.

           Recommendation #3:

           Develop a detailed plan and budget for the training and course development
           needed to implement the FEMA Qualification System.

           Management Comments and OIG Analysis

           FEMA submitted formal comments to our report. A copy of the FEMA response
           in included as appendix B. FEMA concurred with all recommendations. Our
           analysis of the FEMA response to the recommendations follows.

           Recommendation #1: Establish and implement an approved FEMA Qualification
           System project plan, with defined metrics and timeframes that ensure adequate
           project planning and program transparency.

           Management Response: FEMA concurred with this recommendation. FEMA
           stated that it will develop a project plan in FY 2012. FEMA also reported that it is


www.oig.dhs.gov                                 9                                        OIG-12-89
                             OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security


           finalizing the following three FQS documents that will provide the doctrine and
           overarching guidance to enable FEMA to formulate the recommended plan
           above and define metrics and timelines: (1) the FQS Guidance Document that
           will govern the FQS Program, (2) the FQS Evaluator’s Guide, and (3) the
           Qualification Review Board Guide.

           OIG Analysis: We consider FEMA’s actions responsive and consider the
           recommendation resolved, but it will remain open until a formal closeout letter
           and supporting documentation are provided.

           Recommendation #2: Implement a comprehensive information technology
           system to track credentialing, training, and deployment information. In doing so,
           consider using commercial off-the-shelf systems.

           Management Response: FEMA concurred with this recommendation and stated
           that it has identified and committed to using the Bureau of Land Management's
           Incident Qualifications and Certification System (lQCS). FEMA reported that it
           will be joining other Federal departments and agencies already using the system
           to credential their own personnel. FEMA plans to implement IQCS by October 1,
           2012.

           OIG Analysis: We consider FEMA’s actions responsive and consider the
           recommendation resolved, but it will remain open until a formal closeout letter
           and supporting documentation are provided.

           Recommendation #3: Develop a detailed plan and budget for the training and
           course development needed to implement the FEMA Qualification System.

           Management Response: FEMA concurred with this recommendation and
           reported that it plans to (1) develop needed FQS-related courses in FYs 2012–
           2013 and (2) develop, revise, and consolidate future coursework as needed.
           FEMA also stated that a budget for training and course development has been
           developed, but approval has not yet been received.

           OIG Analysis: We consider FEMA’s actions responsive and consider the
           recommendation resolved, but it will remain open until a formal closeout letter
           and supporting documentation are provided.




www.oig.dhs.gov                               10                                      OIG-12-89
                            OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security


   Appendix A
   Purpose, Scope, and Methodology
   The Department of Homeland Security (DHS) Office of Inspector General (OIG) was
   established by the HomelandfSecurityfActfoff2002 (Public Law 107-296) by amendment
   to the InspectorfGeneralfActfoff1978. This is one of a series of audit, inspection, and
   special reports prepared as part of our oversight responsibilities to promote economy,
   efficiency, and effectiveness within the Department.

   The purpose of our review was to determine the status of FEMA’s implementation of
   the FQS program. We focused on the implementation timeframes, curriculum
   development, and supporting documentation. We interviewed officials from the FQS
   program, and collected and reviewed documents and plans relevant to the FQS and
   prior credentialing efforts. We also reviewed FEMA policies, memorandums, and
   organization charts. We reviewed prior Federal audit reports. Our fieldwork was
   performed in Washington, DC.

   Relevant criteria included the Post-KatrinafEmergencyfManagementfReformfActfoff2006.

   We conducted this review between July and November 2011.

   We conducted this review under the authority of the InspectorfGeneralfActfoff1978, as
   amended, and according to the Quality Standards for Inspections issued by the Council
   of the Inspectors General on Integrity and Efficiency.




www.oig.dhs.gov                               11                                      OIG-12-89
                                      OFFICE OF INSPECTOR GENERAL
                                           Department of Homeland Security


   Appendix B
   Management Comments to the Draft Report
                                                                                      U,S. Deporla. nl cfHomel . nd   S~u ri ty
                                                                                      \" R~h inglon, DC 20.5211




                                                                              'lQ , Homeland
                                                                              \~ Security

                                                     APR 2 7 1012


             .\IIEMORANDUM FOR:            Anne L. Richards
                                           Assistant inspector General ror Audits
                                           Office of the Inspector General

             FROM:
                                                                ,{ , 'W
                                           David J. KaufmDn ...Jt/...f,.Ii<;""""
                                           Director
                                           Office of Policy and Program Analysis

             SUBJECT:                      FEMA's Response Lo DIG Drafi Repon, FEIvIA 's Progress ill
                                           implemelltil1g Employee Credentials


             The Federal Emergency Management Agency ( FEMA) appreciates the opportunity to review and
             rcspond to the Department of Homeland Security ( 01 IS) Office of Inspector General (O IG) Draft
             Report, FEMA's Progress ill Implementing Employee Ooedellflals. The report focused on the
             implementation status of the FEMA Qualification System ( FQS) and identified measures that can
             be taken to enhance the FQS program's overall effectivencss. As FEMA works towards refining
             its programs, the DIG 's analysis of program impl ementation benefits Ollf ability to continuously
             improve our activities. As requested. we bave provided written comments on the draft report as
             well as specific responses to each recommendation.

             Overa ll Comments
             FEMA notes that the audit team conducted research all this project between July and Novt:mber
             2011. Since November 201 1, FEMA has made si gnificant progress in our cftarts to implement
             employee credentialing. Specific<llly:

                         FEMA issued qual ification letters to its current disaster workforce employees on
                         January 3, 2012. At present, 75 percent of tile disaster resc(ve workforce is
                         credentialed as qualified and 25 percent are under trainee status.
                     •   FEMA leadership has identified an infonnmion technology system to track the training,
                         development, and deployment of its disaster workforce. FEMA has committed to use the
                         Bureau of Land Management" s Incident Qualifications and Certi fi cation System (IQCS) and
                         is sehedulcd to implement IQCS by October 1,20 12. Further, once thc FQS Guidance
                         Document is approved , FEMA will begin the migration of employee job titles and
                         qualification infonnation into FEMA IT Systems by cadre.
                         FEMA' s force structure requirements will intonn disaster ass!gnments for all
                         empluyees, including Pennam::nl Full-Ti me (P FD , Cuun:: u rOn-Cull
                         Response/Recovery Employees (CORE), and Reservists. T he force structure
                         identifies the appropri ate size, gr:1des, (I emographics, locations, functions, stnlCtllre,




www.oig.dhs.gov                                                  12                                                               OIG-12-89
                                    OFFICE OF INSPECTOR GENERAL
                                         Department of Homeland Security




                         and composition of the workforce needed to address current and future disaster
                         workload requirements. It will allow FEMA to identify and address skill gaps or
                         deficiencies in mission critical occupations.
                     •   Of] 36 courses requiring modification or development under FQS, 83 have been completed
                         and are in various stages of pilot testing.


              Response to Recommendations

              OIG Recommendation #1: Establish and implement an approved FEMA Qualification System
              project plan, with defined metries and timeframes that ensure adequate documentation of project
              planning and program transparency.

                  FEMA Response to Recommendation #1: FEMA concurs with this recommendation. FEMA is
                  currently finalizing the following three PQS documents that will provide the doctrine and
                  overarching guidance to enable FEMA to fonnulate the recommended plan above and define metries
                  and timelines: 1) the FQS Guidance Document that will govern the FQS Program; 2) the FQS
                  Evaluator's Guide; and 3) the Qualification Review Board Guide. A project plan will be developed
                  in Fiscal Year 2012.

              OIG Recommendation #2: hnpiement a comprehensive information technology system to track
              credentialing, training, and deployment infonnation. Consider commercial off~the~shelf systems
              used by other public or private organizations.

                  FEMA Response to Recommendation #2: FEMA concurs with this recommendation. After a
                  review of the various options to track credentialing, trruning, and deployment infonnation, FEMA
                  leadership has identified and committed to use the Bureau of Land Management's Incident
                  Qualifications and Certification System (IQCS) and will be joining other Federal Departments and
                  Agencies already using thc system to credential their own personnel. FEMA is scheduled to
                  implement 1QCS by October I, 2012.

              OIG Recommendation #3: Develop a detailed plan and budget for the training and course
              development needed to implement the FEMA Qualification System.

                  FEMA Response to Recommendation #3: FEMA concurs with this recommendation. The plan for
                  course development and revision is as follows:
                      • During FY 12 and 13, disaster courses will be developed, revised, and consolidated as
                         needed.
                      • After FY 13, courses will be revised or developed every three years !!: when the Agency
                         doctrine changes!!! if there are legislative changes (e.g., Equal Rights Office and Alternative
                         Dispute Resolution (ADR) have annual1egislative changes requiring updates to their
                         courses).
                  A budget for training and course development has been developed, but approval has not yct been
                  received.



                                                               2




www.oig.dhs.gov                                              13                                                        OIG-12-89
                                   OFFICE OF INSPECTOR GENERAL
                                        Department of Homeland Security




              Once again. thank. you for the opportunity to comment on the findings and recommendations of
              the OIG Draft Report on FbMA '8 Progress in Implementing Employee Credentials prior to its
              publication. We look forward to working with you on future homeland security emergency
              management engagements to improve FEMA programs and initiatives. Please fecI free to
              provide any comments/concerns to our Chief Audit Liaison, Mr. Brad Shefka, 202~646* 1308.




                                                            3




www.oig.dhs.gov                                            14                                                OIG-12-89
                          OFFICE OF INSPECTOR GENERAL
                             Department of Homeland Security


   Appendix C
   Major Contributors to this Report
   Donald Bumgardner, Division Director
   Eric Young, Inspection Manager
   Meredith Needham, Program Analyst
   Douglas Campbell, Program Analyst
   Kevin Dolloson, Communications Analyst
   Dennis Deely, Independent Reference Reviewer




www.oig.dhs.gov                           15                   OIG-12-89
                              OFFICE OF INSPECTOR GENERAL
                                  Department of Homeland Security


   Appendix D
   Report Distribution
   Department of Homeland Security

   Secretary
   Deputy Secretary
   Chief of Staff
   Deputy Chief of Staff
   General Counsel
   Executive Secretary
   Director, GAO/OIG Liaison Office
   Assistant Secretary for Office of Policy
   Assistant Secretary for Office of Public Affairs
   Assistant Secretary for Office of Legislative Affairs

   Office of Management and Budget

   Chief, Homeland Security Branch
   DHS OIG Budget Examiner

   Congress

   Congressional Oversight and Appropriations Committees, as appropriate




www.oig.dhs.gov                                  16                        OIG-12-89
ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this report, please call the Office of Inspector General
(OIG) at (202)254-4100, fax your request to (202)254-4305, or e-mail your request to
our OIG Office of Public Affairs at DHS-OIG.OfficePublicAffairs@dhs.gov. For
additional information, visit our OIG website at www.oig.dhs.gov or follow us on Twitter
@dhsoig.

OIG HOTLINE

To report alleged fraud, waste, abuse or mismanagement, or any other kind of criminal
or noncriminal misconduct relative to Department of Homeland Security programs and
operations:

• Call our Hotline at 1-800-323-8603

• Fax the complaint directly to us at (202)254-4292

• E-mail us at DHSOIGHOTLINE@dhs.gov; or

• Write to us at:
        DHS Office of Inspector General/MAIL STOP 2600,
        Attention: Office of Investigation - Hotline,
        245 Murray Drive SW, Building 410
        Washington, DC 20528

The OIG seeks to protect the identity of each writer and caller.
